KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

August 2, 2019

BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Crown Asset Management LLC v. Barbato, No. 19-100

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. I am writing to inform
you that petitioner consents to the filing of any and all briefs of amici curiae related
to the petition for a writ of certiorari, whether in support of either or neither party.
Should you need any additional information, please do not hesitate to let me know.
Yours sincerely,
Kannon K. Shanmugam

cc:

Daniel A. Edelman, Esq. (by U.S. mail)

